                                     SOCIAL SECURITY

MEMORANDUM

Date:   June 18, 2004                                                               Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Summary of State Disability Determination Services Administrative Cost Audits
        Completed in Fiscal Years 2000 through 2003 (A-15-03-13061)


        The attached final report presents the results of our audit. Our objective was to
        summarize common findings and recommendations reported by 15 Disability
        Determination Service administrative cost audits.

        Since we are not making new recommendations in this audit report, a response
        regarding corrective action is not required. Such responses will be obtained via the
        audit resolution process for the individual audits on which the summary is based. If you
        wish to discuss the final report, please call me or have a member of your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                        S
                                                        Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      SUMMARY OF STATE DISABILITY
 DETERMINATION SERVICES ADMINISTRATIVE
        COST AUDITS COMPLETED IN
     FISCAL YEARS 2000 THROUGH 2003

      June 2004      A-15-03-13061




     AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE
Our objective was to summarize common findings and recommendations reported by
15 Disability Determination Service (DDS) administrative cost audits.

BACKGROUND
The Disability Insurance (DI) program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program is a nationally uniform program that provides income to
financially needy individuals who are aged, blind and/or disabled. The Social Security
Administration (SSA) implements the general policies governing development of
disability claims under the DI and SSI programs. In accordance with Federal laws and
regulations, the DDS in each State performs disability determinations of claimants’
medical eligibility for SSA programs and ensures that adequate evidence is available to
support its determinations. SSA reimburses the DDS for 100 percent of allowable
expenditures. In Fiscal Year (FY) 2003, over $1.6 billion was allocated by SSA to fund
State DDS operations. As of September 2003, there were 52 DDS offices which are
located in the 50 States, the District of Columbia and Puerto Rico.

In April 2001, we developed a cyclical audit plan and schedule to provide for a timely
and effective review of administrative expenses associated with the DDS audits. The
schedule was based on the following factors: (1) past administrative cost audits,
(2) amount of annual costs, and (3) requests made by SSA. We completed 15 DDS
administrative cost audits in FYs 2000 through 2003. We conducted these audits to
determine whether costs claimed were allowable and properly allocated, Federal funds
drawn agreed with total expenditures, and internal controls over the accounting and
reporting of administrative costs were adequate.

RESULTS OF REVIEW
We reviewed the findings and recommendations in 15 DDS administrative cost audit
reports completed in FYs 2000 through 2003. Two of the 15 audits did not contain any
findings. In the remaining 13 reports, we found issues, which directly impact the
efficiency and effectiveness of the DDS fiscal and administrative operations. These
findings concern unallowable administrative costs and noncompliance with Federal
regulations and SSA’s Program Operations Manual System (POMS). We have
summarized the previous findings by dollar impact on SSA funding:

   •   indirect costs;
   •   cash management;
   •   consultative examinations;
   •   all other non-personnel costs; and
   •   crosscutting issues.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)   i
Our recommendations included monitoring and implementing internal controls and
complying with Federal regulations and SSA’s POMS. Prior to issuing this summary
report, SSA reported that recommendations for 8 of the 15 DDS administrative cost
audits were implemented.

CONCLUSION
Our audit findings and related recommendations demonstrate the need for improvement
in SSA’s oversight of the DDS fiscal operations. The noncompliance with Federal
regulations and POMS as well as internal control weaknesses noted throughout the
audit reports can be attributed in part to the insufficient oversight by SSA. It is SSA’s
responsibility to ensure that policies and procedures are followed, internal controls are
effective and adequate, and Federal funds are appropriately spent and documented.
Further, SSA needs to be proactive in ensuring that SSA regional office and State staffs
are adequately trained and have the expertise in financial management and accounting
processes.

To assist SSA management with improving the Agency’s oversight capability, we plan to
include an audit of SSA’s oversight in our FY 2005 Office of Audit Work Plan. Our
objective will be to make recommendations that will improve SSA’s oversight of DDS
fiscal and administrative operations.

AGENCY COMMENTS
SSA has generally agreed with our previous recommendations. In SSA’s comments to
this summary report, SSA stated it has implemented recommendations from 8 of the
15 audits where appropriate, and continues to work towards implementation of all
recommendations. SSA supports the Office of the Inspector General’s plan to include
an audit of SSA’s oversight of DDS administrative costs in the FY 2005 Office of Audit
Work Plan.




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)   ii
                                                                    Table of Contents
                                                                                                                     Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Indirect Costs ..........................................................................................................2

Cash Management ..................................................................................................4

Consultative Examinations ......................................................................................5

All Other Non-Personnel Costs ...............................................................................6

Crosscutting ............................................................................................................7

  •    Unliquidated Obligations .................................................................................7

  •    Accounting Errors............................................................................................8

  •    Other Internal Controls ....................................................................................9

Other Matters ........................................................................................................10

CONCLUSION ......................................................................................................13

APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – OIG DDS Administrative Cost Audits Completed in Fiscal Years 2000
             through 2003

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                     Acronyms
 AMA                       American Medical Association
 CAP                       Cost Allocation Plan
 CE                        Consultative Examinations
 CFR                       Code of Federal Regulations
 CMIA                      Cash Management Improvement Act
 DDS                       Disability Determination Services
 DI                        Disability Insurance
 Form SSA-4513             State Agency Report of Obligations for SSA Disability Programs
 FY                        Fiscal Year
 OIG                       Office of the Inspector General
 OMB                       Office of Management and Budget
 POMS                      Program Operations Manual System
 RC                        Regional Commissioner
 SSA                       Social Security Administration
 SSI                       Supplemental Security Income
 Treasury                  United States Department of Treasury
 U.S.C.                    United States Code




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                             Introduction
OBJECTIVE
Our objective was to summarize common findings and recommendations reported by
15 Disability Determination Service (DDS) administrative cost audits.

BACKGROUND

The Disability Insurance (DI) program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program is a nationally uniform program that provides income to
financially needy individuals who are aged, blind and/or disabled. The Social Security
Administration (SSA) implements the general policies governing development of
disability claims under the DI and SSI programs. In accordance with Federal laws and
regulations1 the DDS in each State performs disability determinations of claimants’
medical eligibility for SSA programs and ensures that adequate evidence is available to
support its determinations.2 SSA reimburses the DDSs for 100 percent of allowable
expenditures. In Fiscal Year (FY) 2003, over $1.6 billion was allocated by SSA to fund
DDS operations. As of September 2003, there were 52 DDS offices which are located
in the 50 States, the District of Columbia and Puerto Rico.

In April 2001, we developed a cyclical audit plan and schedule to provide for a timely
and effective review of administrative expenses associated with the DDS audits.3 The
schedule was based on the amount of annual costs for each DDS and past
administrative audits as well as requests made by SSA.

We completed 15 DDS administrative cost audits in FYs 2000 through 2003 (See
Appendix B). We conducted these audits to determine whether costs claimed were
allowable and properly allocated, Federal funds drawn agreed with total expenditures,
and internal controls over the accounting and reporting of administrative costs were
adequate.




1
  42 United States Code (U.S.C.) §§ 421 and 1382c(a)(3)(H)(i); 20 Code of Federal Regulations (CFR)
part 404, subpart Q, and part 416, subpart J.
2
  “State” is used throughout our report to mean any of the 50 States of the United States, the District of
Columbia, the Commonwealth of Puerto Rico, any territory or possession of the United States, or any
agency or instrumentality of a State exclusive of local governments.
3
  Memorandum dated April 23, 2001 to Larry G. Massanari, Acting Commissioner, Further Coverage of
DDS Administrative Cost Audits.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                     1
                                                              Results of Review
We reviewed the findings and recommendations in 15 DDS administrative cost audit
reports completed in FYs 2000 through 2003. Two of the 15 audits did not contain any
findings. In the remaining 13 reports, we found issues which directly impact on the
efficiency and effectiveness of the DDS fiscal and administrative operations. These
findings concern unallowable administrative costs and noncompliance with Federal
regulations and SSA’s Program Operations Manual System (POMS).

We have summarized the previous findings by dollar impact on SSA funding.

                      Finding                         Number of           Dollars
                      Category                         Reports          (in millions)

         Indirect Costs                                       6             $12.3

         Cash Management: Overdraws                           7                5.2

         Consultative Examinations                            3                4.5
         All Other Non-Personnel                              3                2.5
         Crosscutting:
           Unliquidated Obligations                           7                9.0
           Accounting Errors                                  9                4.6
           Other Internal Controls                            8                1.3

                          Total                               13*           $39.4
       * Individual reports often contain multiple findings

INDIRECT COSTS
The Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local and Indian Tribal Governments established the standards for determining costs
for Federal awards carried out through grants, cost reimbursement contracts, and other
agreements with State and local governments and federally recognized Indian tribal
governments. The indirect costs must be reasonable and necessary for proper and
efficient performance and administration of Federal programs. To recover indirect
costs, the States must prepare cost allocation plans or indirect cost rate proposals in
accordance with OMB Circular A-87. The costs must be the net of all applicable credits
that result from transactions reducing or offsetting direct or indirect costs.4
There are two types of costs included within indirect costs—department- and state-wide.
Departmental indirect costs are incurred within a State department and benefit only
components of the department. Statewide indirect costs are incurred at a level above

4
 OMB Circular A-87, Cost Principles for State and Local, and Indian Tribal Governments
Attachment E, A-F.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)     2
the department or agency and benefit most departments (and components) within the
State. The indirect costs include obligations for expenses incurred under a written
indirect cost negotiation agreement or an approved state-wide cost allocation plan
(CAP). Funds for indirect costs may be requested in the budget and conditionally
approved by SSA, before a cost allocation agreement has been signed and issued.
These agreements must be obtained before obligations are incurred for indirect costs.5

We reported unallowable indirect costs and errors made in calculating indirect costs in
6 of 15 audits totaling $12.3 million. We previously recommended SSA establish an
indirect cost oversight process that ensures adequate technical expertise to evaluate
allocation methodologies and to represent SSA’s interest during the indirect cost
negotiation process.6 SSA did not take action to detect or prevent the unallowable
indirect costs claimed and costs that did not benefit SSA or errors made in calculating
indirect costs.

Specifically, the findings disclosed that some indirect cost methodologies were flawed
and CAPs were not followed. We found that:

    •   CAPs were not current or approved;
    •   States did not allocate costs appropriately and consistently to all components;
    •   errors were made in calculating indirect cost amounts;
    •   excessive departmental and statewide indirect costs were charged to SSA;
    •   indirect costs were overstated on SSA’s Form 4513;
    •   indirect cost obligations were not adequately documented;
    •   unallowable indirect costs were claimed that did not benefit SSA; and
    •   SSA regional staff did not possess the expertise to review or negotiate indirect
        cost rates/plans.

It is SSA’s responsibility to ensure: 1) OMB requirements and SSA policies and
procedures are followed; 2) regional offices are proactive in monitoring and testing
claimed indirect costs; and 3) that States’ accounting staff are adequately trained to
perform the necessary tasks involved in the planning and implementation of indirect
cost rates and CAPs.




5
 POMS DI 39503.275 - Indirect Costs.
6
 Similar findings and recommendations are in the Office of the Inspector General report SSA’s Oversight
of Indirect Costs Claimed by DDSs (A-07-03-23086), dated March 2004.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                3
CASH MANAGEMENT

The Congress enacted the Cash Management Improvement Act of 19907 (CMIA) to
ensure the efficiency, effectiveness, and equity of transferring funds between the States
and the Federal Government. The CMIA requires the States to minimize the time
between the receipt and disbursement of Federal funds. The CMIA allows the States to
charge interest when State funds are paid out for Federal programs before Federal
funds are made available.8 Similarly, the State must pay the Federal Government
interest if it draws funds too early.9

We reported in 7 of 15 DDS audits that cash drawn was in excess of the costs incurred
by $5.2 million. Also, while not affecting SSA funding, we found in 2 of the 15 audits
States had failed to draw funds totaling $11.5 million. In addition, the internal controls
were not adequate to prevent the over draw or under draw of SSA funds. We also
found that SSA did not ensure policies and procedures were followed consistent with
the CMIA and did not monitor the draw down of funds. Therefore, we determined cash
draws were not effectively and efficiently made in accordance with applicable laws,
regulations and policies.

Specifically, the findings disclosed that: 1) there were no State procedures for cash
draws by FY reporting period or collecting funds from un-negotiated warrants;10 2) SSA
funds were used to replenish non-SSA activities; 3) regional office staff did not monitor
the draw down of funds to ensure compliance with Federal laws; and 4) State
accounting staff were unaware of excessive cash draw downs.

We previously recommended SSA: 1) establish procedures to recover the proceeds
from un-negotiated warrants; 2) require compliance with the CMIA; 3) periodically
monitor the draw down of funds; and 4) establish accounting procedures which would
provide appropriate reconciliation of draw downs with the Form SSA-4513 report.

It is important that SSA monitor the States’ draw of SSA funds to ensure that States
understand and comply with requirements for drawing down SSA funds and that the
States pay the required interest if they do not comply. Without cash management
controls, States cannot identify and assess allowable cash requirements and there
could be early cash draws, which may cause the Federal Government to lose interest
on those funds.

It is SSA’s responsibility to ensure that controls are implemented to prevent the over
draw of SSA funds. We believe if SSA had performed a comparison of the States’
disbursements reported on the Form SSA-4513 and the Department of the Treasury’s


7
  Public Law No. 101-453.
8
  31 CFR § 205.14.
9
  31 CFR § 205.15.
10
   Warrants are “checks” issued by the State which are not cashed and become non-negotiable after a
specified period of time.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                  4
(Treasury) Automated Standard Application for Payments system reports, most of the
overdraws would have been identified and corrective action taken at the appropriate
time.

CONSULTATIVE EXAMINATIONS

States are required to “…achieve appropriate rates of payments for purchased medical
services”11 and develop a fee schedule to be used by the DDSs for payment of
consultative examinations (CE). DDSs are to consider the fee schedule as a maximum
payment schedule. Authorized payments represent the lower of the provider’s usual
and customary charge, or the maximum allowable charge under the fee schedule and
should not exceed the highest rate paid by Federal or other agencies in the State for the
same or similar types of service.12 When possible, the DDSs should also use the
American Medical Association (AMA) Common Procedural Terminology coding system
to identify each procedure in its fee schedule. The documentation to support rates paid
to providers should be maintained.13

In accordance with POMS,14 DDSs manage the CE process. The DDSs are to:
1) ensure accuracy, integrity, and economy of the CE process; 2) work consistently
within Federal and State laws to achieve appropriate payment rates for purchased
medical services; 3) monitor referrals and the purchase of CEs in accordance with SSA
policies; 4) determine the rate of payment for medical or other services if the State (the
DDS parent agency) does not set a fee schedule; 5) authorize CEs; and 6) perform
comprehensive oversight of its CE program with special emphasis on key providers.15

In 3 of the 15 audits, we reported unallowable medical costs totaling $4.5 million, which
were charged to SSA’s programs. These costs included:

     •   increased fees for specialty examinations, such as x-rays, laboratory tests, and
         other services that were implemented without sufficient notification and
         justification to SSA;
     •   duplicate payments for CEs and medical evidence of record;
     •   excessive review of record fees;
     •   paying hospitals, clinics, and individual physicians for CEs at rates that exceeded
         the highest rate paid by Federal or other State agencies; and
     •   the lack of adequate controls to ensure that CE payments were properly
         authorized.

We previously recommended SSA: 1) improve its oversight of CE fees; 2) limit the
highest rate allowable by Federal or other agencies; 3) clarify on a national level, by
regulation or otherwise, that a State DDS parent agency cannot set DDS CE fees in
11
   20 CFR § 404.1519s(c).
12
   POMS DI 39545.210, Fee Schedules; 20 CFR § 404.1624, Medical and Other Purchased Services.
13
   POMS DI 39545.410, Monitoring and Maintenance of Fee Schedules.
14
   POMS DI 39545.230, Managing the CE Process.
15
   POMS DI 39545 various.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)            5
excess of the highest rate allowable by Federal or other agencies in the State; 4) adopt
the AMA coding system to provide a crosswalk between the DDS and Medicare fees for
the same or similar type of service; and 5) provide supporting documentation and obtain
approval when fees are increased for certain specialty examinations.

SSA has not been proactive in providing adequate oversight to: 1) monitor CE fees and
test documents related to medical costs; 2) ensure that the DDSs are adhering to the
highest rate allowable by Federal or other State agencies for similar services; and
3) ensure payments are properly authorized and disbursed. It is SSA’s responsibility to
provide oversight, leadership and liaison with the States and the DDSs’ responsibility to
ensure that CE fees are paid in accordance with Federal regulations and SSA policies
and procedures.

ALL OTHER NON-PERSONNEL COSTS

DDSs may incur, with proper budget approval, expenses that are categorized as all
other non-personnel costs. Typically, costs incurred for SSA’s disability determination
process are deemed essential and may be charged to SSA.16 These costs may include:
1) occupancy costs; 2) some types of contracted out costs; 3) electronic data
processing maintenance costs; 4) new computer equipment or upgrades; 5) equipment
costs; 6) communications; 7) applicants’ travel; 8) DDS employee travel; 9) supplies;
and 10) other miscellaneous expenses.17

We reported in 3 of 15 audits that all other non-personnel unallowable costs totaled
$2.5 million. Our findings disclosed that deficiencies existed in the DDS’ compliance
with the requirements of OMB Circular A-87, Cost Principles for State, Local and Indian
Tribal Governments18 and POMS19 for incurring and paying costs deemed essential to
the DDS operations. Specifically, the findings include:

     •   unallowable non-personnel costs claimed (communications and rental),
     •   lack of review and maintenance of appropriate documentation, and
     •   staff not appropriately trained in the proper methods of charging non-personnel
         costs to SSA.

We previously recommended that: 1) procedures should be developed to review the
propriety of communication costs charged by other State agencies and private
communication companies to ensure unallowable costs are not claimed; 2) periodic
reviews should be conducted to identify incorrect charges to SSA programs; and 3) staff
should be adequately trained in the technical aspects of classifying non-personnel
costs.


16
   POMS DI 39506.001, DDS Financial Management.
17
   POMS DI 39506.210, D. Procedure - Line Item Reporting, 4. All Other Non-Personnel Costs.
18
   OMB Circular A-87 Attachment A, General Principles for Determining Allowable Costs, C. Basic
Guidelines.
19
   POMS DI 39503.270, Non-Personnel Costs-DDS.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)              6
In accordance with OMB Circular A-123, Management Accountability and Control, it is
important that SSA follow up with the implementation of corrective actions to prevent
unallowable and inappropriate costs. Without appropriate oversight, the DDSs will
continue to claim inappropriate costs that could result in the delay of SSA’s funds for
other administrative programs.

It is SSA’s responsibility to ensure that policies and procedures are followed, staffs are
appropriately trained, and internal controls are effective and adequate to prevent
unallowable expenses.

CROSSCUTTING

We reported three findings that crossed among the other categories: 1) unliquidated
obligations,20 2) accounting errors, and 3) other internal controls.

Unliquidated Obligations

The obligational authority SSA provides to the State agency places a cumulative limit on
the amount of obligational authority available for disbursement of funds. SSA’s POMS21
states that valid unliquidated obligations should be supported by documentation and
records describing the obligation and supporting amounts recorded. In addition, State
agencies should review unliquidated obligations at least once per month to cancel those
no longer valid. States are required to use funds solely for program use and any
unused money should be returned to Treasury.22

We reported in 7 of the 15 audits that the DDSs improperly claimed unliquidated
obligations totaling $9 million. As a result, the DDSs overstated their reported
unliquidated obligations. We found that:

     •   obligations were not deobligated when orders were cancelled;
     •   DDSs improperly used historical data to estimate non-personnel costs;
     •   there were ineffective methods for estimating unliquidated obligations; and
     •   obligations were not reduced when all outstanding obligations were resolved.

Our findings disclosed that a total of $9 million in unliquidated obligations had not been
appropriately deobligated or supported by documentation. Because fund balances were
carried as unliquidated obligations, funding authority was not released or made
available for other SSA programs. As a result, other SSA programs’ needs may not be
met or could be delayed due to annual budget restrictions on how much SSA can use
for administrative costs (including the funding of DDS operations).


20
   Unliquidated obligations represent the orders placed for goods and services received, but for which
payment has not yet been made.
21
   POMS DI 39506.203, Updating and Reconciling Unliquidated Obligations.
22
   Section 221(f) of the Social Security Act, as amended, (42 U.S.C. § 421(f)).


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                     7
We previously recommended that the DDSs: 1) deobligate any unliquidated obligations
that are not supported by valid documentation; 2) implement additional reporting
controls to ensure that all obligations are adequately supported; and 3) review
unliquidated obligations at least once per month to ensure those no longer valid are
cancelled.

It is SSA’s responsibility to ensure that appropriate measures are taken to accurately
account for and report on unliquidated obligations. We believe an important element of
SSA’s oversight should be to ensure that claimed unliquidated obligations are valid and
to determine if States are actively reviewing the unliquidated obligations. This oversight
should provide verification that obligations are adequately documented and deobligated
if they are not expected to result in payment.

Accounting Errors
Federal regulations23 require State agencies to be responsible for the efficient and
effective administration of Federal awards through the application of sound
management practices. Management controls are the organization, policies and
procedures used to reasonably ensure that: 1) programs achieve their intended results;
2) resources are used consistent with the agency mission; 3) programs and resources
are protected from fraud, waste and mismanagement; 4) laws and regulations are
followed; and 5) reliable and timely information is obtained, maintained, reported and
used for appropriate decision making.24

In addition, SSA is required25 to ensure:

     The balance of an appropriation or fund limited for obligation to a definite period is
     available only for payment of expenses properly incurred during the period of
     availability…the appropriation or fund is not available for expenditure for a period
     beyond the period otherwise authorized by law.

In 9 of the 15 audits, we found that accounting errors occurred. As a result, a total of
$4.6 million in excess costs were recorded and reported in the wrong FY. The incorrect
recording and reporting occurred because:

     •   the Form SSA-4513 was finalized before all obligations were liquidated;
     •   rental space costs were incorrectly allocated;
     •   the necessary manual adjustments were not always performed to correct
         inaccurate reporting;
     •   clerical errors were made and payroll system problems occurred;
     •   obligations were not always established in a timely and accurate manner;
     •   there were no procedures for a “cut-off” of costs in the proper year; and
23
   OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments, Attachment A,
Section (A) Purpose and Scope, (2) Policy guides (1) (a) (as amended August 29, 1997).
24
   OMB Circular A-123, Management Accountability and Control, 2. Policy.
25
   31 U.S.C. §1502 (a).


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                  8
     •   SSA gave permission to use funds for other than current FY recording and
         reporting.

Of particular concern to us is regional office approval of accounting for costs, (for
example using funding for one FY to pay for another year’s rent) in a manner explicitly
prohibited by POMS and OMB Circular A-87.26

We previously recommended SSA follow established Federal regulations for expenses
incurred for the period of fund availability to include establishing procedures for
reporting expenditures in the correct FY.

The improper recording of funds between FYs prevents SSA from accurately monitoring
and reporting on the status of the State’s expenditures. It is SSA’s responsibility to set
the objectives, ensure that control mechanisms are in place, and monitor and evaluate
those controls to ensure that Federal funds are appropriately recorded and reported for
the DDS program operations.

Other Internal Controls
Internal controls serve as a first-line of defense in safeguarding assets and preventing
and detecting errors and fraud. Internal controls provide reasonable assurance that the
objectives of the agency are being achieved in the: 1) effectiveness and efficiency of
operations; 2) reliability of financial reporting (i.e. budget execution, financial
statements); and 3) compliance with appropriate laws and regulations.27

Management and employees have a responsibility to establish and maintain an
environment throughout the organization that sets a positive and supportive attitude
toward internal control processes. As such, SSA management has a key role in
providing leadership in this area, especially in setting and maintaining the organizations’
ethical tone. Management is responsible for controls relating to information processing,
proper execution of transactions and events, accurate and timely recording of
transactions, and maintaining appropriate documentation to ensure reasonable
assurance through internal controls.28 Transactions should be properly recorded,
accounted for, and executed in compliance with applicable laws, regulations and the
provisions of contracts and grant agreements that could have a direct and material
effect on a Federal program.29

In 8 of the 15 audits, we previously found issues concerning other internal control
weaknesses. The findings indicated that deficiencies existed in the reported

26
   OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments, Attachment A, C.
Basic Guidelines, 1-4; POMS DI 39506.001 - DDS Financial Management.
27
   General Accounting Office Standards for Internal Controls in the Federal Government AIMD-00-21.3.1
(November 1999).
28
   OMB Circular A-123, Management Accountability and Control.
29
   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
Subpart A - General §105, Definitions.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                9
administrative costs because management was not proactive in reviewing
documentation to ensure costs claimed were supported and properly allocated. The
eight findings totaled $1.3 million. The findings included, but were not limited to: 1) no
segregation of duties for recording and reporting time and attendance; 2) no
documentation to support disbursements; 3) inventory records were not maintained;
4) invoices and canceled checks for vendor payments were missing; 5) unsupported
personnel costs; 6) clerical and reporting errors; 7) misclassified personnel costs; and
8) staffs were not always aware of the emphasis that SSA places on internal control
procedures.

SSA’s managers are responsible for monitoring and improving the effectiveness of
management controls associated with their programs. While these weaknesses do not
affect the amount SSA reimbursed the DDSs, correction of these weaknesses could
improve the Agency’s ability to accurately report costs associated with the DDS fiscal
and administrative management.

OTHER MATTERS
Our summary of report findings has brought to our attention the need for improvement
in SSA’s oversight of the DDS administrative and fiscal operations. In addition, two
other reports came to our attention that identified similar oversight issues.30 Although
the two reports are outside the scope of our summary report, we are presenting the
findings as other matters with respect to this report. We believe the two examples
presented below demonstrate the need for additional fiscal oversight of the DDSs. To
assist the Agency in the fiscal accountability of DDSs, we plan to conduct an audit of
SSA’s fiscal oversight of the DDSs.

During the Georgia DDS audit we noted that costs claimed on the Forms SSA-4513
were about $8.3 million more than the supporting accounting records that had been
provided to us. We sought alternative sources of data and were able to reduce the
difference to about $2.3 million. We recommended the Atlanta Regional Office work
with the DDS to determine to what extent the difference between the accounting records
could be supported by detailed records traceable to invoices, checks, etc. and Georgia
reimburse SSA for unsupported costs.

In its comments to the Office of the Inspector General’s draft report, the Atlanta
Regional Office stated:

     We agree that if claimed costs cannot be adequately supported, then DHR
     [Department of Human Resources] should reimburse SSA. However, the Regional
     Office is not staffed or trained to either obtain or determine what constitutes valid or
     acceptable supporting documentation of DDS fiscal transactions and obligations.


30
  Administrative Costs Claimed by the Georgia Disability Adjudication Service (A-15-01-11021), dated
February 6, 2004, and The SocialSecurity Administration’s Oversight of Indirect Costs Claimed by
Disability Determination Services, (A-07-03-23086) dated March 16 2004.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                   10
      The expertise required to perform this type of fiscal accounting function regarding a
      DDS or its parent agency does not currently reside within the Regional Office.

POMS31 identifies the Regional Commissioner (RC) as the principal SSA officer at the
regional level. The RC manages and directs SSA regional operations in accordance
with national standards and policies. SSA needs to ensure that the regional offices are
staffed with individuals who have the technical expertise to provide fiscal oversight
operations of the DDSs.

The second report that came to our attention was an audit of oversight of indirect costs
claimed by the DDSs. The report disclosed opportunities for SSA to improve its
oversight and identified areas for improvement that were needed because SSA’s
current indirect cost oversight process:

          9 Relies on cognizant Federal agencies to represent SSA’s interest in the
            rate/plan review, negotiation and approval processes. However, the
            cognizant agencies’ processes are not designed to represent SSA’s interest
            to the extent that it would identify all incorrect or inequitable indirect costs
            allocated to DDSs.
          9 Delegates indirect cost oversight responsibilities to its regional offices.
            However, SSA did not ensure that the regional offices had the detailed
            knowledge needed to oversee this complicated process.
          9 Relies extensively on State and other Federal audits to identify and correct
            problems with the approved rate/plan and to ensure the rate/plan is properly
            executed by the DDSs. However, State and Federal audits do not provide
            annual audit coverage of indirect costs charged to SSA by DDSs.

As reported in statements made by 8 of 10 regional offices, SSA regional staffs do not
possess the technical knowledge of indirect costs. The regional offices informed us that
they did not have the expertise needed to adequately review the rates/plans and/or
monitor the resolution of indirect cost findings reported in State and Federal audits.
When changes are made to the rates/plans, the changes are not explained and are
hard to understand. Unless the regional office has a detailed knowledge of a DDS
indirect cost allocation process, it does not know what services are being provided for
the DDS by the State.

Most regional offices believed it is the responsibility of State and Federal auditors to
ensure the indirect cost/rate plan represents SSA’s interest and ensure the DDS
correctly executes the approve rate/plan.

In our report, we agreed that both the Single Audits and the OIG’s DDS administrative
cost audits play an important role in the indirect cost process. However, Federal and
State audit agencies do not provide annual audit coverage of DDS’ indirect costs.



31
     POMS DI 39501.020 B. 2. Roles and Responsibilities for Administering SSA’s Disability Programs.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)                   11
Accordingly, we recommended that SSA establish an indirect cost process that would
ensure it has the technical expertise to evaluate allocation methodologies as well as
protect and benefit SSA’s interest. In response, SSA stated that establishing an indirect
cost oversight process that ensures adequate technical expertise to evaluate allocation
methodologies and to represent SSA’s interest during the indirect cost negotiation
process appears difficult and wasteful of its limited resources given the stewardship
currently performed by cognizant Federal agencies on indirect costs. Further, the OIG
should perform additional oversight of indirect costs.

Our recommendation was directed to the Agency’s fundamental responsibility to ensure
the effectiveness of internal controls over the indirect costs charged to its disability
programs by DDSs. OMB Circular A-123 Management Accountability and Control,
states stewardship of Federal resources is the fundamental responsibility of each
Federal agency. Agency employees must ensure that Government resources are used
efficiently and effectively to achieve intended program results. Resources must be used
consistent with the Agency’s mission, in compliance with laws and regulations, and with
minimal potential for waste, fraud, and mismanagement. Further, OMB Bulletin 01-02
Audit Requirements for Federal Financial Statements requires that SSA issue a
management representation letter annually. In that letter, SSA must state that it is
responsible for establishing and maintaining internal controls and has assessed the
effectiveness of its internal controls.




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)   12
                                                                   Conclusion
Our assessment of the audit findings and related recommendations demonstrate the
need for improvement in SSA’s oversight of the DDS fiscal operations. The
noncompliance with Federal regulations and POMS as well as internal control
weaknesses noted throughout the audit reports can be attributed, in part, to the
insufficient oversight by SSA. It is SSA’s responsibility to ensure that policies and
procedures are followed, internal controls are effective and adequate, and Federal
funds are appropriately spent and documented. Further, SSA needs to be proactive in
ensuring that SSA regional office and State staffs are adequately trained and have
expertise in financial management and accounting processes.

To assist SSA management with improving the Agency’s oversight capability, we plan to
include an audit of SSA’s oversight in our FY 2005 Office of Audit Work Plan. Our
objective will be to make recommendations that will improve SSA’s oversight of DDS
fiscal and administrative operations.

AGENCY COMMENTS
SSA generally agreed with our previous recommendations. In its comments to this
summary report, SSA stated it has implemented recommendations from 8 of the 15
audits, where appropriate, and continues to work towards implementation of all
recommendations. SSA supports the Office of the Inspector General’s plan to include
an audit of SSA’s oversight of DDS administrative costs in the FY 2005 Office of Audit
Work Plan.




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)   13
                                          Appendices




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                                  Appendix A
Scope and Methodology
We reviewed the findings and recommendations in 15 disability determination service
(DDS) administrative cost audits completed in Fiscal Years (FY) 2000 through 2003.
Specifically, we analyzed the findings,1 related recommendations and identified relevant
issues concerning the Social Security Administration’s (SSA) oversight of the DDS fiscal
and administrative management.

We also reviewed:

    •   Applicable Office of Management and Budget guidance;

    •   SSA’s Program Operations Manual System instructions DI 39500 DDS Fiscal
        and Administrative Management;

    •   Office of the Inspector General (OIG) DDS administrative cost audit reports
        for the individual States of Alabama, Arizona, California, Connecticut (limited
        distribution), Florida, Hawaii, Illinois, Kansas, Kentucky, New York,
        North Dakota, Oregon, and Washington as well as the District of Columbia and
        Puerto Rico; and

    •   OIG report, SSA’s Oversight of Indirect Costs Claimed by the DDS (A-07-03-
        23086) and OIG report Administrative Costs Claimed by the Georgia Disability
        Adjudication Section (A-15-01-11021) both of which were outside the scope of
        our audit.

We performed our review in Baltimore, Maryland, between May and October 2003. The
audit was conducted in accordance with generally accepted government auditing
standards.




1
  There were no findings reported for the Florida and North Dakota DDS Administrative Cost Audits. The
Connecticut audit report was issued under limited distribution; therefore, we only reviewed two of five
findings and recommendations concerning administrative costs.


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                             Appendix B
                   OIG DDS Administrative Cost Audits Completed
                           in Fiscal Years 2000 through 2003

Administrative Costs Claimed by the Alabama Disability Determination Services
(A-08-01-11050), dated September 2002
Audit of the Administrative Costs Claimed by the Arizona Department of Economic Security
for its Disability Determination Services Administration (A-15-99-51009), dated August 2001
Audit of Administrative Costs Claimed by the California Disability Determination Services
(A-09-02-22022), dated May 2003
Audit of the Administrative Costs Claimed by the Connecticut Disability Determination
Services (Limited Distribution) (A-15-00-30016), dated September 2001
Audit of the Administrative Costs Claimed by the District of Columbia Disability
Determination Division (A-13-98-91003), dated February 2001
Audit of the Administrative Costs Claimed by the Florida Division of Disability
Determinations (A-08-03-13006), dated September 2003
Audit of the Administrative Costs Claimed by the Hawaii Disability Determination Services
(A-09-03-13012), dated September 2003
Audit of the Administrative Costs Claimed by the Illinois Bureau of Disability Determination
Services (A-05-02-22019), dated August 2003
Audit of the Administrative Costs Claimed by the Kansas Disability Determination Services
(A-07-02-22003), dated October 2002
Audit of the Administrative Costs Claimed by the Kentucky Department of Disability
Determination Services (A-08-03-13007), dated September 2003
Audit of the Administrative Costs Claimed by the New York Disability Determination Division
(A-15-00-20053), dated May 2003
Audit of the Administrative Costs Claimed by the North Dakota Disability Determination
Services (A-15-02-12036), dated September 2002
Audit of the Administrative Costs Claimed by the Oregon Disability Determination Services
(A-15-99-52021), dated February 2001
Audit of the Administrative Costs Claimed by the Commonwealth of Puerto Rico Disability
Determination Program (A-06-02-22072), dated February 2003
Audit of the Administrative Costs Claimed by the State of Washington Division of Disability
Determination Services (A-15-02-12025), dated August 2003




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                        Appendix C
Agency Comments




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                                                                                   Appendix C




                                         SOCIAL SECURITY
MEMORANDUM                                                                          33126-24-1074


Date:      May 20, 2004                                                       Refer To: S1J-3

To:        Patrick P. O’Carroll
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Summary of State Disability
           Determination Services Administrative Cost Audits Completed in Fiscal Years 2000
           Through 2003” (A-15-03-13061)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report are
           attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Gail Scruggs at extension 54259.

           Attachment:
           SSA Response




           Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061) C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SUMMARY OF STATE DISABILITY DETERMINATION SERVICES
ADMINISTRATIVE COST AUDITS COMPLETED IN FISCAL YEARS 2000 THROUGH
2003” (A-15-03-13061)

Thank you for the opportunity to comment on this draft report. We continue to work
toward implementation of the recommendations from the reports and have already
implemented audit recommendations from 8 of the 15 audits where appropriate. We
support OIG’s plan to include an audit of SSA’s oversight of DDS administrative costs in
the OIG fiscal year 2005 Office of Audit Work Plan. We believe this will allow OIG the
opportunity to provide continued input with regard to improving the Agency’s oversight
responsibility.

Below are our comments on the five major finding categories.

Indirect Costs

OIG states that “it is SSA’s responsibility to ensure that: 1) The Office of Management
and Budget (OMB) requirements and SSA policies and procedures are followed;
2) regional offices (RO) are proactive in monitoring and testing claimed indirect costs;
and 3) that States’ accounting staff are adequately trained to perform the necessary
tasks involved in the planning and implementation of indirect rates and cost allocation
plans (CAP).”

We agree that oversight of indirect costs has been challenging. In the past, we have
requested OIG audits in specific States and cited questionable indirect costs as the
reason for requesting the audit. We believe that testing of specific claimed costs is an
audit function and properly suited for OIG.

However, as we pointed out in our February 20, 2004 comments to OIG's Report
(A-07-03-23086), “Review of Social Security Administration’s Oversight of Indirect Costs
Claimed by the State Disability Determination Services,” “…The cognizant Federal
agencies have the necessary technical expertise and responsibility for acting on behalf
of all Federal agencies. Therefore, duplicating the expertise required of the cognizant
agency to deal with the very complicated State indirect cost agreements for the ten
regions would appear difficult and wasteful of our limited resources.”

Cash Management

OIG states it is important that SSA monitor the States’ draw of SSA funds to ensure that
States understand and comply with the requirements for drawing down funds and that
they pay the required interest if they do not comply. Based on a previous review (OIG
Report [A-07-00-10032], "Summary of Fiscal Year 2000 Single Audit Oversight
Activities”), we issued DDS Administrators’ Letter #586 on October 4, 2001, which
reminded the DDSs about the Cash Management Improvement Act (CMIA) agreements


Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061) C-2
and asked DDS personnel to remind appropriate State personnel to adhere to the terms
of their CMIA agreements with the Department of Treasury. In addition, as
recommended by OIG, we are implementing an ongoing process to compare
disbursements on the 4513s with draw downs on Automated Standard Application for
Payments (ASAP) systems reports.

Consultative Examinations

We have been working with RO staffs to revise our policy in the area of consultative
examination payments. We want to ensure that the DDSs comply with the current
Federal/State regulations and, at the same time, achieve maximum cost effectiveness
of their medical dollars. Program Operations Manual System (POMS) (39545.200)
instructions are in place that inform the DDSs that the rates of payment for medical
services may not exceed the highest rate paid by Federal or other government agencies
in the State for similar types of services. On March 12, 1999, a DDS Administrators'
Letter was issued instructing the DDSs that they must provide documentation and
obtain approval when their fees are increased due to special circumstances. However,
we believe that the testing of documents and ensuring that payments are properly
authorized and disbursed are audit functions and properly reside with OIG.

All Other Non-Personnel Costs

We agree that it is SSA’s responsibility to make sure that staff is adequately trained in
the technical aspects of classifying non-personnel costs and we will continue to
encourage our RO staffs to conduct appropriate training for State personnel.

Crosscutting

We agree that SSA should ensure that appropriate measures are taken to accurately
account for and report on unliquidated obligations. By September 2004, we expect to
issue instructions to our RO staffs to work with the States to review POMS 39506.812
which details requirements in this area. However, we believe that review of the
propriety of specific communication charges and periodic reviews to identify incorrect
charges to SSA programs are audit functions and reside with OIG.




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061) C-3
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Audit Division

   Lance Chilcoat, Audit Manager, DDS and Contract Audits (410) 965-9743

Acknowledgments
In addition to those named above:

   Sandra Westfall, Senior Program Analyst

   Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-03-13061.




Summary of State DDS Admin. Cost Audits Completed in FYs 2000 - 2003 (A-15-03-13061)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
